Order (Dismissal) April 16,2021
Appendix B
Dismissal Order September 3,2020
Appendix C
Appendix D
Case Exhibits I thru III
Word Count 1,246

STATE OF WEST VIRGINIA
At a Regular Term of the Supreme Court of Appeals, continued and held at Charleston,
Kanawha County, on April 16,2021, the following order was made and entered:
George C. Vann,
Petitioner Below, Petitioner
vs.) No. 20-0813
Roane County Commission, Charles B. White, Jr.,
Richard C. Frum, Andrew Patton and
Gregory E. Elliott, et al,
Defendants Below, Respondents

Order
On October 16, 2020, the petitioner, George C. Vann, self-represented, presented an
untimely notice of appeal from an order of the Circuit Court of Roane County (Case No. 2020-P7) entered on September 3,2020. The petitioner’s notice of appeal was due on or before October
3, 2020. By order entered on January 4, 2021, the Court entered a scheduling order allowing the
appeal to move forward, if the petitioner provided good cause for the untimely filing of his notice
of appeal on or before January 20,2021. If good cause were shown, the deadline for the petitioner
to perfect the appeal was April 5,2021.
On January 22, 2021, the petitioner responded to the Court’s scheduling order by
submitting various documents that failed to demonstrate good cause for the untimely filing of the
notice of appeal and were themselves untimely.
Thereafter, on April 14, 2021, nine days after the provisional deadline set forth in the
Court’s scheduling order if good cause for the untimely notice of appeal was shown, the
petitioner submitted documents that failed to comply with the Rules of Appellate Procedure and
were, again, untimely.

Having failed to show good cause for the untimely filing of his notice of appeal and for
otherwise failing to comply with the Court’s rules and orders, the petitioner’s action is
dismissed. The Clerk is directed to remove the action from the Court’s active docket.

A True Copy

Attest: Is/ Edythe Nash Gaiser
Clerk of Court

STATE OF WEST VIRGINIA
At a Regular Term of the Supreme Court of Appeals, continued and held at Charleston,
Kanawha County, on February 11,2021, the following order was made and entered:
George C. Vann,
Petitioner Below, Petitioner
vs.) No. 20-0813
Roane County Commission, Charles B. White, Jr.,
Richard C. Frum, Andrew Patton and
Gregory E. Elliott, et al,
Defendants Below, Respondents

ORDER
On February 10, 2011, the Honorable Tim Armstead, Justice of the Supreme Court of
Appeals of West Virginia, having reviewed the motion for disqualification filed by the petitioner,
notified the Clerk of this Court that he finds no basis for his disqualification and he declines to
recuse himself from participating in in this case, in accordance with Canon 2, Rule 2.11 of the
Code of Judicial Conduct and Rule 33 of the Rules of Appellate Procedure.

A True Copy
Attest: /s/ Edvthe Nash Gaiser
Clerk of Court

Office of Counsel

Phone: (304) 558-6035
Phone: (304) S5S-6580
Fax: (304) 558-6045

State Capitol, Room E-400
1900 Kanawha Boulevard, East
Charleston, WV 25305

Chief Counsel
Bruce A. Kayuha

July 20,2020

George C. Vann
12926 Couples Place
Waldorf, Maryland 20601
Re:

Vann v. Roane County Commission, et al., Roane County Case No. 20-P-7

Dear Mr. Vann:
By Administrative Order entered on May 5, 2020, your motion for Judge Anita Harold
Ashley’s disqualification from presiding over the above-styled case was denied.
I am in receipt of your letter with attachments dated July 3, 2020. There are no matters
involving the above-styled case pending before this Court.

Bruce(^r K^uha
Chief Counsel
cc:

'•s.

Honorable Anita Harold Ashley
Andrea Stockner, Clerk

ADMINISTRATIVE ORDER
SUPREME COURT OF APPEALS OF WEST VIRGINIA
RE:

GEORGE C. VANN. PLAINTIFF V. ROANE COUNTY COMMISSION. ET AL..
DEFENDANTS. ROANE COUNTY CASE NO. 20-P-7

By letter dated April 22, 2020, the Honorable Anita Harold Ashley, Judge of the Fifth
Judicial Circuit, advised the Chief Justice of the Supreme Court of Appeals that Plaintiff, George
C. Vann, self-represented litigant, filed a motion for her disqualification from presiding over the
above-styled case.
Judge Ashley has further advised the Chief Justice that she does not believe there are
sufficient grounds for her disqualification.
Upon review of said motion and Judge Ashley’s response thereto, and in accordance with
Trial Court Rule 17.01(c), the Chief Justice has determined that Judge Ashley’s disqualification
from presiding over the above-styled case is not warranted.
IT IS, THEREFORE, ORDERED, that the motion for disqualification is hereby denied.
IT IS FURTHER ORDERED, that the Honorable Anita Harold Ashley, Judge of the Fifth
Judicial Circuit, be, and she hereby is, directed to continue to preside over the above-styled case.
IT IS FURTHER ORDERED, that the Circuit Clerk of Roane County record this Order
and provide copies of the same to all parties of record or their counsel.
ENTERED:

MAY 5,2020

TIM ARMSTEAD
Chief Justice

1
West Virginia E-Filing Notice

CC-44-2020-P-7
Judge: Anita Ashley
To:

GEORGE C VANN;
12926 COUPLES PLACE
WALDORF, MD 20601

NOTICE OF FILING
■>!

IN THE CIRCUIT COURT OF ROANE COUNTY, WEST VIRGINIA
GEORGE C VANN v. ROANE COUNTY COMMISSION
CC-44-2020-P-7
The following order - case was FILED on 9/3/2020 4:35:20 PM

A
■y

Notice Date:

9/3/2020 4:35:20 PM
Andrea Stockner
CLERK OF THE CIRCUIT
Roane
•1.!

PO Box 122

t

SPENCER, WV 25276
(304) 927-2750
andrea.stockner@courtswv.gov

>r

4.

E-FILED | 9/3/2020 4:35 PM .
CC-44-2020-P-7
.■ Roane County Circuit Clerk
Andrea Stockner

/si Anita Harold Ashlcv
Circuit Court Judge
Ref. Code: 20HNRQQ8
t

In the Circuit Court of Roane County, West Virginia
GEORGE C VANN,
Plaintiff,
vs.)
ROANE COUNTY COMMISSION,
CHARLES B WHITE, JR,
RICHARD CFRUM,
ANDREW (DREW) PATTON,
GREGORY E ELLIOTT ET AL,
Defendants
• :}'

)
)
)
)
)
)
)
)
)
)
)
)

Case No. CC-44-2020-P-7

01-

DISMISSAL ORDER
This matter is before the court on an appeal from a decision of the Roane County
ii.
Commission. The, Petitioner submitted a “Complaint for Statutory Full Disclosure and Damages”
on March 25, 2020.
Pursuant fo Rule 8 of the West Virginia Rules of Civil Procedure, a party’s pleadings
“shall contain (l)^a short and plain statement of the claim showing that the pleader is entitled to
relief, and (2) a demand for judgment for the relief the pleader seeks.” W. Va. R. Civ. P. 8. Upon
Vi

review of the Petitioner’s complaint, which is partially typed and partially handwritten, the Court
finds that the Petitioner has failed to comply with the requirements of Rule 8. Id. The Petitioner,
in his Complaint, fails to state a claim for which relief may be granted or a demand for judgment
V;

for relief.

■J

>'}

Furthermore, Rule 8 of the West Virginia Rules of Civil Procedure requires clarity. See
State ex rel. McGrow v. Scott Runyan Pontiac-Buick, Inc., 194 W. Va. 770, 776, 461 S.E.2d 516,

i,

522 (1995). The,*Supreme Court of Appeals of West Virginia has announced a standard that
governs the sufficiency of pleadings under Rule 8, which requires a complaint to be “intelligibly
/
V;

sufficient for a circuit court or an opposing party to understand whether a valid claim is alleged
0

7:
<V

d

?y< 3

y

and, if so, what it is.” Id. Here, the Petitioner’s Complaint is mostly incomprehensible. It is
A

unclear to the Court, as well as to the other parties, what allegations the Petitioner is making and
who he is seeking relief against. Thus, the Petitioner’s “Complaint” does not meet the standard

if
h

required by Rule 8: W. Va. R. Civ. P. 8.
.I-/1

Consequently, it is hereby ORDERED that the case be dismissed and stricken from the
docket of the Circuit Court of Roane County, West Virginia.
S\.

i;

t'l-

The Clerk shall provide an attested copy of this Order to all parties at their addresses of
record.

’ <

•*
y
■y,<
)■y
t;;

/s/ Anita Harold Ashley
Circuit Court Judge
5th Judicial Circuit

&
%
w

Note: The electronieisignature on this order can be verified using the reference code that appears in the
upper-left corner of-the first page. Visit www.courtswv.gov/e-file/ for more details.
• i*.

■d.

!.?:

&
. »•*
'i
?-S

3
:ii

'■■S

'
i;

S■;i

•■ll

■A

■

M

v

i$i.AnhaHsmld AslifeyCircuitCdUrt Judge
Ref. Code;19VTEJZK

i

-- •
X

fc-NLfcU 17/3/2019 3;56 PM:
CC-44-2019-P-10

Roane Gounty Ciraiit Clerk
;• Andrea Sfocfaier

IN THE CIRCUIT COURT OF ROANE COUNTY, WEST VIRGINIA
IN RE: THE MATTER OF:
GEORGE C. VANN, as TRUSTEE/HEIR,
Petitioner.
Civil-Action No.: 19-P-10
Judge Ashley
ORDER
\

On this 14t6 day of June, 2019, came the Petitioner, George C. Vann, by counsel,
Gregory E. Elliott and came Steven Vann, by counsel,-Timothy J. LaFon, and came
Susan Brooks, in person, and by counsel, Andrew Patton, upon the previously filed
appeal petition by George C. Vann. The Court after reviewing the petition.and exhibits
and the arguments of counsel, does hereby DISMISS on its own motion, without
prejudice,, the petition filed herein.
It further ORDERED that the Clerk of this Court, shall forward a Certified Copy
of this Order to the parties, by forwarding the same to their counsel of record, free of
charge.

'it

ENTERED this ^ day of J,
f

!

i.

2019.
i

/
i

/i

LA:uh/-

/)

THE HONORABLE ANITA ASHLEY'

\

Additional material
from this filing is
available in the
Clerk's Office.

